                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 1-12-02-0012                                                                   Page 1 of 1



         This investigation was initiated based on notification from the Department of Justice of a qui tam
         civil false claims filing against a company 1 alleged to have made false claims on its federal
         awards.

         Investigation determined that the company has not received any NSF funding.
                                                                          2
         Accordingly, with the concurrence of the Assistant U.S. Attomey , this investigation is closed.




                         r




NSF OIG Form 2 (11102)
